<html>
<title> - UNITED STATES CAPITOL POLICE: OPERATIONS AND WORKFORCE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                     UNITED STATES CAPITOL POLICE:
                        OPERATIONS AND WORKFORCE

=======================================================================

                                HEARING

                               before the
                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    3ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 26, 2018

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      



                       Available on the Internet:
         https://www.govinfo.gov/committee/house-administration
         
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 33-062                 WASHINGTON : 2018             
         
         
         
                   Committee on House Administration

    GREGG HARPER, Mississippi, 
             Chairman

ROBERT A. BRADY, Pennsylvania,       RODNEY DAVIS, Illinois, Vice 
  Ranking Member                     Chairman
ZOE LOFGREN, California              BARBARA COMSTOCK, Virginia
JAMIE RASKIN, Maryland               MARK WALKER, North Carolina
                                     ADRIAN SMITH, Nebraska
                                     BARRY LOUDERMILK, Georgia


         UNITED STATES CAPITOL POLICE: OPERATIONS AND WORKFORCE

                              ----------                              


                         TUESDAY, JUNE 26, 2018

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:09 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Walker, Brady, and 
Lofgren.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Deputy 
Staff Director/Policy and Oversight; Steven Wall, Deputy 
General Counsel; Dan Jarrell, Legislative Clerk; Amanda Anger, 
Professional Staff Member; Matt Field, Director of Oversight; 
Erin McCracken, Communications Director; Jamie Fleet, Minority 
Staff Director; Khalil Abboud, Minority Deputy Staff Director; 
and Eddie Flaherty, Minority Chief Clerk.
    The Chairman. I now call to order the Committee on House 
Administration for today's hearing examining the operations and 
workforce of the United States Capitol Police.
    We will pause for a moment while that is set up.
    I want to thank everyone for being here today.
    The hearing record will remain open for 5 legislative days 
so Members may submit any materials they wish to be included.
    A quorum is present, so we may proceed.
    When Congress moved from Philadelphia to Washington, D.C., 
in 1800, one man was hired to protect the U.S. Capitol 
Building. Nearly 30 years later, in 1828, the U.S. Capitol 
Police was born. Now in its 190th year, the USCP employs more 
than 2,200 officers and civilians, protects approximately 16 
million square feet of Capitol buildings and grounds, and 
manages a budget north of $400 million.
    The USCP plays a crucial role in protecting the legislative 
branch. The USCP's mission is to protect the Congress, its 
Members, employees, visitors, and the facilities so that 
Congress may fulfill its constitutional and legislative 
responsibilities in a safe, secure, and open environment to the 
people the institution serves.
    And we know that this is no small or easy task. The 
shooting incident that took place 1 year ago on the baseball 
field in Alexandria, Virginia, reminded us all of the ever-
growing challenges faced by law enforcement in this country and 
around the world.
    We are grateful to law enforcement for their willingness to 
risk their lives in the protection of others. And we especially 
appreciate the men and women of the USCP, whose daily efforts 
and constant dedication ensure that this Congress may serve the 
Nation with as little danger or disruption as possible.
    Much of this has to do with the USCP's leadership. Chief 
Verderosa has led the USCP for 2 years and has more than 30 
years' experience with the department. That means he knows its 
operations inside and out. The Committee looks forward to 
discussing how the Chief's leadership has transformed the 
department and what his vision of the future looks like.
    We expect to hear from our panel on the challenges that 
USCP faces related to its strategic plan for operations and 
workforce development. These challenges include: promoting 
accountability through employee engagement and positive work 
environment; nurturing a culture of professionalism, inclusion, 
and performance-oriented management; becoming a data-driven, 
innovative, and continually learning organization; establishing 
and enforcing best practices, standard operating procedures, 
and internal controls; providing consistent, effective, and up-
to-date training; recruiting and retaining a new generation of 
employees; and planning for future human capital and 
operational needs.
    It is our hope to examine the effectiveness of the USCP's 
management structure and human capital initiatives in 
bolstering the department's reputation as a leader in law 
enforcement operations.
    I thank our panel for their appearance before the Committee 
today.
    And I would now like to recognize the Ranking Member of the 
Committee, Mr. Brady, for the purpose of providing an opening 
statement.
    Mr. Brady.
    [The statement of The Chairman follows:]

                            COMMITTEE INSERT

    Mr. Brady. Thank you, Mr. Chairman. And I want to thank you 
for calling this hearing today.
    I am glad to see the Chief, who I have known for a long 
time, and our union leader there, who, despite being a New York 
Giants fan, is not a bad guy. I appreciate our Acting Inspector 
General for stepping in while the board conducts its search.
    My dad was a police officer, and, since my time in 
Congress, I have been in support of Capitol Police; I have 
tried to support what the department needs. You have hard jobs, 
and I want you to know you have allies on the dais and on the 
House floor who want to help you, because all you are trying to 
do is help us.
    Last year's shooting at the baseball practice, as you 
mentioned, Mr. Chairman, and the tragedy of the train accident 
are nationally known examples of how important your work is. 
But the Chairman and I know that work happens every day, and I 
look forward to hearing what more we can do to support you. And 
I thank you for being here.
    And I yield back the balance of my time.
    [The statement of Mr. Brady follows:]

                            COMMITTEE INSERT

    The Chairman. The gentleman yields back.
    Does any other Member wish to be recognized for the 
purposes of an opening statement?
    Seeing none, I would now like to introduce our panel of 
witnesses.
    Chief Matthew R. Verderosa became the USCP's ninth Chief of 
Police when he assumed his position on March 21, 2016. As Chief 
of Police, Chief Verderosa oversees the entire police 
department, including its operations and administration, and he 
is a valued partner in the daily operations on Capitol Hill. 
The Chief has been with the department in numerous roles since 
1986, having worked his way up through the ranks and gaining a 
very unique law enforcement perspective along the way.
    Mr. Michael A. Bolton is the Acting Inspector General for 
the USCP. He assumed this position this year when the second 
USCP IG retired. Mr. Bolton has been with the IG's office since 
2006 and has more than 30 years of law enforcement and auditing 
experience in both the private and public sectors.
    And our last witness, Mr. Gus Papathanasiou--I hope I came 
close on that, Gus--is the Chairman of the USCP's Labor 
Committee for the Fraternal Order of Police. He has served on 
the union executive board since 2009 and became a Chairman in 
2016, and he is in his 16th year of employment with USCP.
    The Committee has received your written testimony. You will 
have 5 minutes to present a summary of that submission. You 
know the drill. The clock will be there. It will be green when 
it starts for 4 minutes, and it will turn yellow with a minute 
remaining, and then will turn red after the 5 minutes has 
expired.
    The Chair now recognizes our witnesses for the purposes of 
their opening statements, and I will begin with Chief 
Verderosa.
    Chief.

STATEMENTS OF MATTHEW VERDEROSA, CHIEF OF POLICE, UNITED STATES 
   CAPITOL POLICE; MICHAEL BOLTON, ACTING INSPECTOR GENERAL, 
UNITED STATES CAPITOL POLICE; AND GUS PAPATHANASIOU, CHAIRMAN, 
 UNITED STATES CAPITOL POLICE LABOR COMMITTEE, FRATERNAL ORDER 
                           OF POLICE

                 STATEMENT OF MATTHEW VERDEROSA

    Chief Verderosa. Thank you, sir.
    Good morning, Mr. Chairman, Ranking Member Brady, and 
Members of the Committee. Thank you for this opportunity to 
discuss the proactive efforts of the United States Capitol 
Police to protect Congress and secure the U.S. Capitol complex 
in an environment of increasing threats.
    I am joined here today by members of my executive team and 
the executive management team, including Chief of Operations 
Assistant Chief Steve Sund, Chief Administrative Officer Mr. 
Richard Braddock, and General Counsel Gretchen DeMar.
    I would also like to thank the Committee for their support 
of the department, our personnel, and our operations. Congress 
has been very generous in providing the resources necessary to 
support our crucial mission.
    Since I testified here last, we have seen many changes on 
Capitol Hill and within the department in response to current 
events and serious incidents. The reality is the Capitol 
remains an attractive target. Therefore, we must continually 
assess the risks and adjust our strategies for addressing any 
threats.
    As police officers, we do not know what we may face each 
day. We train and prepare so that we can respond to any threat 
in an instant because lives depend on it. We constantly work to 
ensure the department's tactics do not become predictable or 
routine and that our personnel are always prepared.
    It is with this in mind that we have worked to align these 
security realities with our strategic goals and available 
resources. Our top priorities continue to be the security 
initiatives that will mitigate vulnerabilities and enhance the 
overall safety of the complex. We constantly work to maintain a 
level of security necessary to balance access and security.
    Over the past year, the department has managed an ever-
increasing number of demonstrations, has swiftly responded to 
critical incidents and civil disobedience, and has investigated 
numerous credible threats. At the same time, the number of 
visitors coming to the Capitol complex has steadily increased. 
In 2017, our officers screened 12.5 million individuals at 
building entrances and interior checkpoints.
    We are also aggressively pursuing all leads and 
investigating threats we receive. As a result of last June's 
active-shooter incident, there is a heightened awareness by 
individuals regarding their own personal security and the 
safety of the campus. Last year, the number of threat 
assessment cases that we opened and investigated nearly 
doubled.
    As I noted earlier, the department has grown and 
transformed to address new and emerging threats. We have also 
made great strides in implementing best practices to further 
our strategic efforts as a model law enforcement agency. We 
have developed and implemented more than 400 professional 
standards that were established by the Commission on 
Accreditation for Law Enforcement Agencies, and we recently 
received our sixth consecutive CALEA accreditation.
    The department has also benefited from our Office of 
Inspector General through our business development 
recommendations. Since 2006, we have successfully closed nearly 
85 percent of the IG's 403 recommendations.
    Protecting congressional facilities goes hand-in-hand with 
our overall operational plans. When I testified before this 
committee last February, I outlined a multiyear strategy that 
provides additional physical security throughout the complex 
and addresses three critical mission sets.
    Chief among these projects is enhancing the garage 
security. We have added personnel and have installed physical 
security hardware at the entrances of some of the garages and 
will be in a position to complete that planned security 
perimeter as the Architect finishes its construction projects 
in the Rayburn and Cannon. Staffing for this important 
initiative should be in place by May of 2019.
    Another important tool that we have utilized is enhanced 
screening portals located at the House and Senate galleries. 
These were installed last summer. We are seeking additional 
resources in our Fiscal Year 2019 budget request to add the 
sworn personnel to staff these screening portals at the Visitor 
Center as well.
    With the recent addition of prescreeners at numerous posts 
outside of the House and Senate office buildings, we are 
increasing our abilities to better secure and screen at the 
building access points, reducing our exposure to threats. 
Having an officer, a visible deterrent, at every access point, 
especially at the high-volume entrances, ensures that any 
threat is met and stopped outside of our buildings.
    Our greatest assets are our employees. I am committed to 
working closely with the Capitol Police Board and Congress and 
the FOP to ensure that we continue to invest our resources into 
training, updating and replacing key equipment and systems, and 
ensure our employees have the tools they need.
    This includes identifying training, mentoring, and 
promoting those individuals within the department to be the 
next generation of leaders. Over the past year, we have 
promoted more than 90 officers. All the sworn personnel who 
have joined our command ranks bring a wealth of experience and 
expertise to the department.
    I would be remiss if I didn't note that, this week, Special 
Agent Crystal Griner is receiving the Julie Y. Cross Award from 
the Women in Federal Law Enforcement. This honor is bestowed 
upon an officer who acts with exceptional courage or heroism or 
for an unusual degree of stamina or willingness to go beyond 
the call of duty.
    I am very proud of Special Agent Griner's response to the 
active shooter last year, and I wanted to note publicly my 
appreciation to WIFLE for bestowing this honor upon Special 
Agent Griner.
    And, sir, as always, our mission continues to grow to be 
serving and protecting the Congress and the legislative 
process. I want to ensure that each one of our employees goes 
home safe every day. That is my main focus, and to keep this 
institution safe.
    Lastly, Mr. Chairman, I want to thank you again for the 
opportunity to provide an update for the department's 
priorities and activities. I know that we all are committed to 
keeping everyone who works in and around the Capitol complex 
safe and secure.
    And I am available to answer any questions you may have, 
sir.
    [The statement of Chief Verderosa follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    The Chairman. Thank you, Chief Verderosa.
    The Chair will now recognize Mr. Bolton for 5 minutes for 
the purposes of his opening statement.
    You might slide that a little closer to you there, Mr. 
Bolton.

                  STATEMENT OF MICHAEL BOLTON

    Mr. Bolton. Good afternoon. And thank you for the 
opportunity to appear before the Committee on House 
Administration to discuss the United States Capitol Police 
operations and workforce.
    My name is Mike Bolton. I am the Acting Inspector General 
for the United States Capitol Police. I have been Acting IG 
since April of 2018. I would like to thank the Committee for 
its sustained and unwavering support of the United States 
Capitol Police Office of Inspector General.
    The OIG is dedicated to ensuring that the department, 
board, and committees are accurately informed of audit and 
investigative reviews through the submission of our independent 
reports. These comprehensive reports serve the department in 
achieving the goals of their mission and providing a 
financially responsible operation as well as a safe and secure 
environment for all Members, staff, public employees, and 
visitors to the Capitol complex.
    However, none of this would be possible without the support 
of the Congress and that of the Capitol Police Board. We very 
much appreciate our discussions with you and your staff about 
our work and future projects. These discussions have provided 
us with a regular opportunity to provide the Committee with 
important updates about our activities, challenges, and focus.
    The Inspector General Act established for most agencies an 
OIG and sets its mission, responsibilities, and authority. The 
unique nature of the IG function can present a number of 
challenges for establishing and maintaining effective working 
relationships. To work most effectively together, the agency 
and its OIG need to clearly define what each considers a 
productive relationship and then consciously manage those goals 
in an atmosphere of mutual respect.
    By providing objective information for promoting government 
management, decisionmaking, and accountability, OIG contributes 
to the agency's success. OIG is an agent of positive change, 
focusing on eliminating waste, fraud, and abuse and identifying 
problems and recommendations for corrective actions by our 
agency leadership.
    OIG provides the agency, board, and Congress with objective 
assessments of opportunities to be more successful. Under the 
direct supervision of the Chief, OIG must keep the board and 
Congress fully informed of significant OIG activities.
    Given the complexity of management and policy issues, OIG 
and the agency may sometimes disagree on the extent of the 
problem and the need for and scope of corrective action. 
However, such disagreements should not cause the relationship 
between the OIG and the agency to become unproductive.
    Annually, the OIG prepares a summary of the most 
significant management challenges facing the department. The 
challenges reflect continuing vulnerabilities that OIG 
identified over the last several years as well as new and 
emerging issues the department will face in the coming year. 
Some of those areas that GAO considers its high-risk series may 
include leadership commitment, capacity, action plan, 
monitoring, demonstrated progress.
    In 2016, OIG began using the above criteria to measure the 
department's progress. Since our last report, the department 
has shown solid, steady progress for the majority of its top 
management and performance challenges.
    The top management challenges facing the department are 
protecting and securing the Capitol complex, strengthening 
cybersecurity strategies to address increasing threats, strong 
integrated internal control systems, managing Federal 
contracting more effectively, and human capital management.
    Of the five challenges of the 2017 list, at least four 
partially met all the criteria for removal from the performance 
and management challenges.
    OIG narrowed Challenge 1 from 2017, ``interagency 
communication, coordination, and program integration need 
improvement,'' to ``protecting and securing the Capitol 
complex'' because the department strengthened how intelligence 
on terrorism, homeland security, and law enforcement 
information is shared and coordinated with its Federal, State, 
and local partners.
    Challenge 5, human capital management, is still, however, 
in need of attention.
    For 2018, department challenges remain at five. Overall, 
progress has been made possible through the concerted actions 
of the Chief, the Chief Administrative Officer, and the 
leadership and staff within the department.
    Thank you for the opportunity to appear before you today. I 
will be very happy to answer any questions the Committee may 
have at this time.
    [The statement of Mr. Bolton follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    The Chairman. The gentleman yields back.
    The Chair will now recognize Mr. Papathanasiou for 5 
minutes.

                 STATEMENT OF GUS PAPATHANASIOU

    Mr. Papathanasiou. Thank you, sir.
    Good morning, Chairman Harper, Ranking Member Brady, and 
Members of this Committee. I would like to thank you for giving 
me the opportunity to testify before you on behalf of the 
United States Capitol Police Labor Committee Fraternal Order of 
Police. I am deeply humbled and honored.
    Before I begin my opening remarks, I would like to take a 
moment to thank Chairman Harper and Ranking Member Brady on 
their years of service and wish you both luck in retirement. 
You have been great allies for law enforcement, especially the 
Capitol Police.
    Ranking Member Brady, we have personally had many 
productive meetings throughout the years, and I am happy to see 
that you are leaving on top now that your Philadelphia Eagles 
are Super Bowl champions. Congratulations.
    As I enter my 16th year with the Capitol Police, I have 
been with the union's executive board, serving as the first 
vice chairman since 2009 and now as chairman since 2016. And 
joining me today are members of my executive board: First Vice 
Chairman Officer Keith McFaden, Second Vice Chairman Officer 
Vincent Summers; and legal counsel for the union, Megan Mechak.
    Our labor union plays a vital role in the operation and 
success of the Capitol Police. As outlined in our collective 
bargaining agreement, also known as the CBA, we contribute to 
effectively accomplishing the mission of the U.S. Capitol 
Police by fostering a positive and constructive relationship 
between management and the sworn employees. However, there is 
always room for improvement, and there is still work to be 
done.
    As the department continues to grow and the mission 
changes, we must adjust to these changes. I have been fortunate 
to have a good working relationship with Chief Verderosa and 
Assistant Chief Sund, but these relationships don't occur 
overnight. Collectively, we have worked on building a mutual 
respect for each other, which goes a long way. We meet 
regularly to resolve issues. Although we don't always agree, we 
are all committed to the success of the USCP.
    Some of the issues and concerns we have addressed in our 
meetings and will continue to pursue together include: officer 
morale; wellness of the officers on the front line; balance of 
work and family life; pay scale issues and pay cap issues.
    Unfortunately, we have many areas of disagreement, 
including: ignoring legally binding arbitration rulings; 
ignoring decisions by the Office of Compliance; CBA 
negotiations are at a standstill pending negotiability appeals 
filed before the Office of Compliance and pursued to the 
Federal appellate court; progressive discipline not being 
adhered to as outlined in the CBA.
    As a result of these issues and concerns, the union will 
continue to pursue and promote the following: fair treatment of 
all bargaining unit members; good faith negotiations; resist 
cuts to pensions to the USCP and all of Federal law 
enforcement; enhance law enforcement retirements as we outlined 
in the 2012 GAO actuary study; pursue the pay scale compression 
and increasing yearly pay cap; eliminate the biweekly pay cap 
so that officers don't lose benefits; promote resolving 
grievances at lower levels; promote the well-being of officers 
and improve working conditions, especially when officers are 
working long hours and under the elements of the weather on a 
daily basis; eliminate the hiring of retired double-dippers who 
take away positions from the bargaining unit employees.
    These are just some of the crucial issues we need to work 
on to make positive changes for both management and employees. 
These issues ultimately affect us all. At the end of the day, 
we are all one team, a team dedicated to the department's 
mission, which is to promote the safety of the congressional 
community.
    I am proud of the men and women of the U.S. Capitol Police 
that wear the badge with honor and dignity. I am proud to be 
their union leader. As we put our lives on the line on a daily 
basis, it is time we make positive changes.
    Thank you for allowing me to address this committee, and I 
look forward to any questions you may have. Thank you.
    [The statement of Mr. Papathanasiou follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    The Chairman. I want to thank each of you for your 
testimony.
    And it is now time for the Members to ask questions, and I 
will recognize myself for 5 minutes.
    And I will start with you, Mr. Bolton, if I may. I 
certainly want to thank you for being here today.
    In your testimony, you said that one of the USCP's top 
management challenges is human capital management. Can you 
describe this challenge a little more? And do you believe the 
USCP is doing enough to address that challenge?
    Mr. Bolton. Yes, sir. I would be glad to.
    Human capital is not unique, in a sense, to Capitol Police. 
It is all throughout Federal Government, especially in law 
enforcement, based on my experience. They are managing their 
human capital, but the issues that they have, like other 
Federal law enforcement agencies, is recruitment, retention, 
retirement benefits.
    And you always have that trying to balance between having 
adequate numbers of officers on post with your overtime and 
your restriction of that and being able to maintain the 
security that needs to be maintained.
    The Capitol Police are doing a good job in managing their 
human capital. There is always room for improvement.
    Just recently, just to bring up an issue with the recruit 
class 191, I believe it is, yes, 16 individuals ended up being 
disqualified or dropped from their training regimen. But 
keeping in mind that training is part of recruitment, in a 
sense, till the end. But they have taken other steps to even 
strengthen their training and recruitment since our report as 
well, and they have already taken those steps.
    So they are managing it, but there always needs room for 
improvement.
    The Chairman. Okay.
    Chief Verderosa, first of all, thank you for everything 
that you do and for what the men and women of the USCP do on a 
daily basis to protect this pretty massive campus that we have 
here.
    In the IG's last report detailing the top management 
challenges facing you and USCP, the IG's office found that the 
USCP must revise its performance management system and provide 
more meaningful goals and objectives to employees that link 
performance to the department's overall strategic plan and 
their goals.
    How do you monitor performance, and how do you ensure that 
the leadership goals of the department are carried throughout 
all layers of the department?
    Chief Verderosa. That is a great question, sir. I 
appreciate it.
    One of our initiatives is to transform our personnel 
evaluation system into a meaningful document that actually 
assesses not only the general goals of the strategic plan but 
specific benchmarks for what officers do in their particular 
area of responsibility.
    So we want the counseling session, when you bring someone 
in to talk about performance, to actually mean something. We 
want to tie it to promotional opportunities and also 
opportunities to transfer to specialty areas, to give 
incentives for better performance, increased motivation, that 
kind of thing.
    I think it is incredibly important, and our human resources 
are our most important asset, the people. I believe that all 
supervisors need to be able to communicate effectively with the 
people who work for them. People deserve to know where they 
stand. They deserve to know whether they are doing well, 
whether they need improvement.
    And that is a two-way street; that is a conversation. And 
as those conversations occur within the chain of command, we 
are better able to assess our individual employees and provide 
them with the meaningful feedback that they deserve.
    The Chairman. Great. Thank you.
    And I now recognize the Ranking Member, Mr. Brady, for 5 
minutes for questions.
    Mr. Brady. Thank you, Mr. Chairman.
    First, for the Chief, in your testimony you discussed the 
new missions the police have undertaken--garage security in the 
old building, Members events, to name a few.
    I think that Congress has done okay in getting you the 
bodies and equipment you need for this year and next, but what 
about the future staffing and what about the equipment you need 
for the next 2, 3, and 4 years from now? What can we be doing 
today to make sure you can plan appropriately?
    Chief Verderosa. Thank you, sir. That is a great question.
    The resources we have requested are within the structural 
limit of what we can right now train in addition to our 
attrition. I think there are a number of initiatives that will 
help us maintain the workforce at sufficient numbers. For 
instance, over the last 5 years, we have had 27,000 
applications; we have hired about 500 employees. Our attrition 
is low. I think we have a great handle on--and thanks, in part, 
to great benefits and a great starting pay and a great payroll 
system. We want to maintain our employees, and we want to give 
them the best working conditions that we can do.
    As we finish our Capitol Police Board initiatives for 
providing mitigation to the vulnerabilities, we will seek to 
continue to try to draw down the difference between our mission 
responsibilities and the mission gap in personnel. I know that 
the Inspector General recently reviewed overtime usage, and 
they came to the same conclusion that other auditors had found 
in the past, that we are significantly understaffed. So I 
think, once we work on the new mission sets, we will be able to 
better hire and retain personnel to sort of bridge that gap 
between the necessary overtime and the mission responsibility.
    And that goes a long way to what the Chairman of the FOP is 
talking about--better quality work and off-duty experience.
    Mr. Brady. Thank you, Chief.
    And for Officer ``Papa,'' can you elaborate on the legally 
binding arbitration issues that you brought up in your 
testimony? And what exactly does that mean, and how does it 
impact your membership?
    Mr. Papathanasiou. Thank you, sir.
    Yes, we currently have several pending cases that are going 
to the courts. And the department has ignored arbitration 
rulings and rulings by the Office of Compliance that are 
legally binding. And the cases just drag on and on, wasting 
taxpayer money, you know, as far as we are concerned.
    You know, when an arbitrator and the Office of Compliance 
has ruled to bring officers back to work and the department 
just ignores it, I think it is just a cat-and-mouse game that 
legal counsel plays throughout the system to drag these cases 
on and on.
    So that is my answer to that question.
    Mr. Brady. Thank you.
    Mr. Chairman, on 9/11, when we had that catastrophe, I was 
in my office, and the police officers came coming in and 
knocking on all our doors and told us we had to leave. I didn't 
want to leave because I wanted to watch what was happening. And 
I said to them, I said, ``Well, why do we have to leave? And 
what are you doing? You are going to leave with me.'' They 
said, ``No, no. We've got to make sure the building is 
evacuated. We've got to run through the whole building.'' And I 
still resisted. They said, ``Please. We don't want to use 
force. Will you please leave?'' I said, ``Fine,'' you know.
    And then about 2, 3 days later on the House floor, getting 
a briefing from Homeland Security and the Senate, and there was 
a mysterious package in between the Senate and the House floor. 
Again, we had to evacuate, running down the steps, running out 
of shoes, some people. And, again, our Capitol Police were 
standing there, and they are coming in and we are rushing out.
    As you mentioned, Mr. Chairman, the incident on the 
baseball field, how they handled that. And some of them have 
lost their lives protecting us.
    I mean, when you leave your house, you give your loved ones 
a kiss goodbye and put on a bulletproof vest, and, hopefully--
because I know my dad did the same thing--that you may see them 
again.
    So my question, I guess, to Gus--and the Chief can 
elaborate--what would you do if you heard a loud noise right 
now or you saw a mysterious package in the hallway?
    Mr. Papathanasiou. You want me to answer the question, or 
the Chief?
    Mr. Brady. Sure. You can answer it.
    Mr. Papathanasiou. All right.
    We have protocols in place, shelter in place. Obviously, 
you know, we want to go home to our loved ones, but there are 
policies and procedures in place for the department and the 
officers to follow.
    At the end of the day, like I said, you know, we want to 
keep the congressional community safe. We first need to know 
what is going on with the package or, you know, what the 
incident is. So, like you said earlier, the officers are 
running in. They are going to danger, you know?
    And we want to keep the congressional community safe. And, 
at the end of the day, we want to go home to our family, like 
you said. Most of all, we want you, the Members of Congress, to 
go home to your loved ones back in your districts or wherever 
you are from, and we want the staffers and the visitors, you 
know, to also go home to their loved ones and feel safe when 
they are here.
    And I think the Capitol Police has, as they have done in 
the past, they have done a good job, you know, the officers on 
this department, to run to danger, to protect everybody here in 
this institution, here on this campus, and also away from this 
campus. It is a lot to do, and I have the utmost confidence in 
the officers on this department to complete the mission.
    Mr. Brady. Thank you.
    And, Chief, thank you for the job that you do. You wanted 
to----
    Chief Verderosa. Appreciate it.
    I would like to follow up. And I support Gus and his 
statement in reference to this question, and I will simplify it 
a little bit. We work together. Whether we are officer, 
manager, or the Chief of Police, we are here to protect and 
serve Members.
    We often agree on many issues, the union and I and 
management officials. I can tell you without hesitation that 
the officers and employees of the Capitol Police are 
courageous, they are brave, and they are very dedicated. I 
think that plays out on a regular basis. I think you see that 
on a daily basis.
    We do have some differences. We do have some legal 
challenges. Respectfully, I see some of the arbitration and 
litigation cases through a different lens. I see it as 
exercising management's right to follow the designated appeal 
process of the Office of Compliance and the Federal circuit. I 
think there are a couple of challenges we need to get resolved, 
and I think, once those are resolved, I think all of the other 
issues will probably fall in place.
    So I value the professionalism of the union leadership and 
the union shop stewards. I think they play an integral role in 
helping me and Gus make positive change for the department.
    I think we see much more common ground than we see 
divisiveness. There are certain issues, whether it is a 
disciplinary matter, which is clearly a matter to be followed 
via the CBA--and through management's right to hold people 
accountable. It is in the contract. So we see how we interpret 
the contract a little differently.
    I think that most of those issues are few and far between, 
because 99.9 percent of the police department act on a daily 
basis within the rules and within the guidelines, and I think 
those are the exception and not the rule.
    So I hope that helps clarify the answer.
    Mr. Brady. Thank you, Chief. Thank you, and thank you, Gus, 
and thank your men and women, and thank your family. And my 
family and I thank you, and God bless you for the job you do to 
keep us safe.
    I yield back, sir.
    Chief Verderosa. Thank you, sir.
    The Chairman. The Chair now recognizes the Vice Chairman of 
the Committee, Mr. Davis, for 5 minutes.
    Mr. Davis. Thank you, Mr. Chairman and Ranking Member 
Brady.
    Thank you, Chief and Inspector General and Gus. I won't try 
and pronounce your last name correctly. But I do appreciate 
what each and every one of you do. And there is a, you know, 
big place in my heart for the Capitol Police officers that work 
here every single day, and I do my best to try and get to know 
and joke with each and every one of them, especially Gussy 
here.
    Can you tell Potter to get a little faster on the dog going 
in the Capitol today? I think he was harassing me about the 
football game. It is a really sore subject. Can you make sure 
that every football player works overtime somewhere else in 2 
years when we play again?
    Chief Verderosa. I am trying, sir.
    Mr. Davis. Yeah. Yeah.
    Chief Verderosa. Slowly.
    Mr. Davis. Not trying hard enough, obviously. But it is 
always great to have good competition, and you guys have a 
great operation.
    Chief, I want to start with you. Thanks again for being 
here today.
    Chief Verderosa. Yes, sir.
    Mr. Davis. I really do appreciate your leadership in making 
sure that the campus has, you know, safety in mind for Members, 
constituents, and visitors and they get a chance to see 
democracy in action.
    Part of your strategic plan is to become a continually 
learning organization by using lessons learned from successes 
and shortfalls. I think this is an important goal, especially 
when used to prevent something like last year's baseball 
practice. Thank you for what you did that day too. I 
appreciated your being there, and I think it was a great 
message to send to those Members who don't get to interact with 
you as much as I do and others.
    Without going into much detail on sensitive security 
matters, can you provide some examples of how the Capitol 
Police has learned from the shooting in Alexandria? And have 
you put new policies and procedures in place that you can talk 
to us about?
    Chief Verderosa. Yes, sir. I appreciate the question.
    Obviously, critical incidents cause you to reflect on what 
you do well and where you need to adjust your measures. You 
always have to continually adjust what you do. You don't want 
to create a pattern, and you don't want to get caught behind 
the curve. You want to always be leaning forward.
    So, as we look at, for instance, Member security at 
external events, obviously, we had been in a mode where we 
provided security for assignments of protection on a regular 
basis. We have since widened that net, and we have looked at 
better ways to be able to coordinate with outside law 
enforcement in areas where we feel that we can gain some 
support.
    For instance, since the shooting up until January, we 
coordinated over 400 off-campus Member liaisons with outside 
law enforcement coverage for townhall events, for venues where 
a Member is in their district and they are having an event open 
to the public. We get an incredible amount of cooperation from 
local law enforcement.
    We also have expanded our ability to protect with our own 
dignitary protection unit on various venues. And I think from 
the balance of the year from the shooting, we had 46 
deployments of dignitary protection, that enhanced coverage 
that we didn't have prior to that.
    And along those lines, as well, we are looking at coverage 
more globally. When I say that, we are looking at all the 
assets that we have that we bring to the table, many of which, 
thank you to the Congress for providing the resources for, such 
as our SWAT team, such as our hazardous devices unit, patrol 
officers. They are being transformed into providing coverage at 
events and venues where we didn't have that before.
    And, also, some of the things that came as a result of the 
shooting provided us with tools and technology to help us 
better assess those events to have more information so that we 
can either use that information to our advantage to provide 
coverage or we can pass on to our law enforcement partners who 
may be covering events for us out in the districts and States.
    Mr. Davis. And, Chief, I appreciate that. As somebody I 
know who has coordinated, as, you know, before last year, I 
wouldn't have thought about security at events, but now it is 
unfortunate. We get spoiled out here because we see security 
all around. We take it for granted, what your men and women do 
every day. I can't say thank you enough to David and to Crystal 
and to all of you as officers.
    I am going to ask one last question to Gus, but, before 
that, I want a one-word answer: Are you sure you guys have got 
the transponders program correctly----
    Chief Verderosa. Yes, sir.
    Mr. Davis [continuing]. For all detailees? Thank you. And 
it is double-checked?
    Chief Verderosa. They are checked.
    Mr. Davis. Thank you.
    Gus, do you find better communication right now between 
your members and the Chief and administration since the 
baseball shooting in getting a lot of your priorities for your 
members put in place?
    Mr. Papathanasiou. Yes, sir. The communication between 
myself and the Chief is night and day from what it was with the 
prior administration on this department. So things have 
changed, I think, for the better.
    But, like I said in my testimony, there is still work that 
needs to be done. And I would like to work with the Chief and 
the Assistant Chief and, you know, with my team, as well, to 
improve the department and get it headed in the right 
direction.
    Mr. Davis. Thank you.
    Mr. Papathanasiou. Thank you, sir.
    The Chairman. The Chair now recognizes the gentlewoman from 
California, Ms. Lofgren, for 5 minutes.
    Ms. Lofgren. Well, thank you very much.
    You know, as I was listening to the testimony, I was 
reflecting how transformed the Capitol Police are from when I 
first worked in the Capitol. Both Mr. Davis and I were staffers 
before we were elected to Congress, and when I was on the staff 
here, the Capitol Police were patronage. And I remember, you 
know, making friends with some of the officers. You know, they 
were officers, but they were really just students, and it was a 
way to have a job. And this has been completely transformed 
into a professional organization.
    And it is good to have this testimony today, hearing from 
everyone. Everyone acknowledges there are more things to do, 
but I think everyone has also acknowledged the progress that 
has been made. So that is a little piece of good news.
    I was reviewing the hearing that we had last year, and one 
of the questions I had, and it hasn't been answered yet, is, 
obviously, we do provide mutual aid to other organizations. I 
am not suggesting that that is wrong, but the primary focus is 
the protection of the U.S. Capitol.
    And I am assuming that we have written protocols for the 
provision of mutual aid, and I would like to see them. And it 
may be that we should do that in a confidential setting. You 
know, we don't want terrorists to know what the protocols are. 
But I would like to know what they are and review them.
    And I am wondering if we could arrange to do that at some 
point, Chief.
    Chief Verderosa. Certainly. We have memorandums of 
understanding with some of our partner agencies. We have, 
obviously, verbal agreements. In any emergency, we are going to 
respond as needed. Assuming that we have adequate protection 
here on the Hill----
    Ms. Lofgren. Right.
    Chief Verderosa [continuing]. We can respond under the law 
to emergency situations.
    We have a very good working relationship here in D.C. It is 
probably just because of the way the jurisdictions are designed 
here. There are so many different entities that have a part in, 
you could say, one major event, where the Park Police have The 
Mall, Metropolitan Police have Third Street and have some of 
the avenues----
    Ms. Lofgren. Right.
    Chief Verderosa [continuing]. And then we have Capitol 
Grounds.
    We meet regularly. We have a very close personal 
relationship. We meet with the board, particularly, on a 
quarterly basis. When there is a large event coming, whether it 
is the State of the Union or inaugural, we actually meet on a 
monthly basis.
    We also attend regularly liaison meetings. There was one 
yesterday at the Metropolitan Police. They have a weekly 
meeting where we discuss intel, large-scale events, and all the 
types of things that are going to occur.
    The relationship between the agencies has never been 
better. We have officers who sit on FBI task forces as task 
force officers. They are embedded within these other agencies, 
and they become collective in the team that provides us with 
the ability to, one--and particularly this is important when we 
are investigating threats. We have people who are situated, as 
such, on the violent crimes task force----
    Ms. Lofgren. Right.
    Chief Verderosa [continuing]. That are able to quickly talk 
to the resident agent in a particular area, and we get 
immediate response.
    Ms. Lofgren. Well, that is good news. I remember, after the 
9/11 attacks, one of the questions asked--we had a joint 
meeting with our Sergeant at Arms and the Capitol Police. And 
one member asked, ``When did the Secret Service call?'' And the 
answer was, ``Well, we're still waiting for the call.'' And 
that was, you know, a month later.
    Chief Verderosa. Right.
    Ms. Lofgren. So I think those incidents have caused us to 
work together.
    But I am still concerned about this scenario where you have 
a terrorist threat and their idea is to create a diversion to 
actually drain the protecters from their primary mission. And I 
am interested what protocols are in place to address that 
scenario. But we will do it outside of the public meeting.
    And I will just end with this. I think this is probably our 
last oversight hearing with the chair and ranking member, both 
of whom are retiring. I thank them both for their hard work and 
their caring about this department and everything else. And I 
certainly--I will be seeing them over and over again, but the 
interest that they have both shown in the department is really 
important, and we all recognize that and wish them well in the 
future.
    I yield back.
    The Chairman. The gentlewoman yields back. And we 
appreciate your kind words very much.
    The Chair will now recognize the gentleman from North 
Carolina, Mr. Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    Just one point I would like to make, as far as regarding 
Gus. I think, no matter what the position, if we had more 
people like you involved in day-to-day operations throughout 
the entire government, we would be a better place. I always 
love your spirit and your ability to connect and reach out. So 
keep up the good work.
    Mr. Bolton, your office identified several management 
challenges facing the USCP. The word ``several,'' is that more 
than 10? Less than 10? A good amount?
    Chief Verderosa. Five.
    Mr. Walker. Five, okay, including the need for strong 
integrated control systems. Can you tell us why these internal 
controls are so important to the Capitol Police operations? And 
can you provide some examples of where stronger internal 
controls are needed?
    Mr. Bolton. Internal controls for any agency is extremely 
important. What your internal control does, one, is gives you a 
repeatable business position, that whatever your day-to-day 
activities, whether it is time and attendance, accounting for 
sick leave, manpower, is a repeatable business despite no 
matter if someone retires--if Richard Braddock decided to 
retire tomorrow, we can continue on operations and have a 
continuous--without interruption.
    Internal controls also prevent, as in the Inspector General 
world, fraud, waste, and abuse. By having strong internal 
controls, it eliminates the potential for having fraud or 
waste, such as--and it is not that it happened, but even 
recently when we had a report on compensatory time, where we 
needed to have a little stronger internal control in deciding 
when it is scheduled overtime or unscheduled, it is comp time, 
where they are--and where we had, then, strong internal--where, 
if it is or unscheduled leave, that individual hasn't made the 
required 40 hours for that week. Now, if it is scheduled, 
obviously, they cancel it, and they can have that overtime. We 
just wanted to have a stronger internal control to prevent any 
potential----
    Mr. Walker. Sure.
    Mr. Bolton [continuing]. Of that problem. That is why it is 
very important throughout government to have strong internal 
controls.
    Mr. Walker. Absolutely.
    And a tough question here, but do you feel like these 
suggestions, these recommendations are being taken to the level 
of trying to implement some of these controls? Are they hearing 
the suggestions? Can you just briefly touch on that?
    Mr. Bolton. Yes, sir. In fact, I would say the Capitol 
Police, under the leadership of Matt, has done a very good job 
in closing our recommendations.
    Mr. Walker. How many have they closed? How many have you 
recommended, and how many have they closed?
    Mr. Bolton. From when we first initiated--and we started up 
in 2006--we have made a total of 403 recommendations to the 
department. Out of that, 344 have been closed.
    I just closed two additional recommendations this morning 
based on the response by the department and the paperwork. So 
they were at 61 this morning before I came over, and now they 
are down at 59.
    Now, granted, a majority of those recommendations are in 
the human resources, but that is going to be tied to a lot of 
the financial statement audits that we have. And some are 
repeat findings. A lot of that is, again, having those internal 
controls.
    Mr. Walker. Is it safe to say that some may never close 
because of the way that it is laid out?
    Mr. Bolton. I would say eventually it would be closed.
    Some of the recommendations do involve monetary 
considerations. Generally, that is what we try to avoid in the 
Inspector General--although sometimes you just can't avoid it. 
But we try not to place a burden on a department where it is 
going to be required for them to have an additional budget 
increase----
    Mr. Walker. Sure.
    Mr. Bolton [continuing]. In order to close it. We try to 
avoid those. Some of them are unavoidable.
    Mr. Walker. Fair.
    Chief, let me ask you a quick question here, if I could, 
please. How are the OIG recommendations instituted across the 
department from a long-term perspective?
    Chief Verderosa. Oh, it is critical to our long-term 
health. You know, I have been working with, first, GAO and then 
the Inspector General's Office for well over 10 years in 
looking at these. One of my goals--and, obviously, we want to 
improve as an agency----
    Mr. Walker. Sure.
    Chief Verderosa [continuing]. Always. I actually leverage 
the audit findings and recommendations. I actually ask for some 
of the more difficult audits to be conducted. Because I know 
that without the recommendations I may not get a lot of energy 
and resources. So I actually want the Inspector General to look 
at these things to help us.
    For instance, we have a swipe card system where we do time 
and attendance. Virtually every employee works a different 
schedule. I have 2,000 employees, and 1,900 of them are law 
enforcement officers that are working different shifts, 
different hours. They stay over for different reasons. They may 
have an arrest; they may have a demonstration.
    Every one of those personnel has to have their time and 
attendance certified within a 2-week period. It is very 
difficult to run around and chase people with a piece of paper. 
This year, we automated a lot of our time and attendance 
process. So now you can pick up a smartphone at home and dial 
in via VPN and certify your time in a timely manner.
    So we went from here on the continuum of internal controls, 
particularly in time and attendance, because 85 percent of my 
budget is payroll.
    Mr. Walker. Sure.
    Chief Verderosa. And I have a tremendous responsibility to 
safeguard the money the government provides to me. I am a 
steward of the government's money. We have moved the bar to 
about here. By the end of this year, through automation, I am 
hoping that we will have the bar here.
    My top priority for human resources and payroll processing 
is to remove the material weakness that we get on a financial 
statement audit on time and attendance processing, to at least 
downgrade it to the next level. So it is a goal. Long term, it 
is for the health of the agency.
    And I value Mr. Bolton's input. And I also value the union 
working with us and trying to find better ways to make that 
process easier to certify time and attendance. You know, let's 
make it easier, if we need to change the rules on swiping in, 
swiping out, or have drop-down menus for the time and 
attendance clerks. When the officers come to work, I want them 
to focus on security, not on their payroll or not on their HR 
issues. So it is very important that we look at it globally for 
the long-term health.
    Mr. Walker. Thank you, Chief. My time has expired.
    Thanks to all the panel for being here today.
    Chairman, I yield back.
    The Chairman. The gentleman yields back.
    I want to thank each of you for your time and the 
information you have given us.
    Without objection, all Members will have 5 legislative days 
to submit to the chair additional written questions for the 
witnesses, which, should we have any, we will forward to you 
and ask that you respond as promptly as possible so they can be 
made a part of the record.
    Without objection, this hearing is adjourned.
    [Whereupon, at 12:03 p.m., the Committee was adjourned.]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
                  <all>
</pre></body></html>
